Office of Material Loss Reviews
Report No. IDR-11-002


In-Depth Review of the Failure of
the Bank of Hiawassee, Hiawassee, Georgia




                                  November 2010
                                     Executive Summary

                                     In-Depth Review of the Failure of the Bank of
                                     Hiawassee, Hiawassee, Georgia
                                                                                     Report No. IDR-11-002
                                                                                            November 2010

Why We Did The Audit
On March 19, 2010, the Georgia Department of Banking and Finance (GDBF) closed the Bank of
Hiawassee and named the FDIC as receiver. On April 1, 2010, the FDIC notified the Office of Inspector
General (OIG) that the Bank of Hiawassee’s total assets at closing were $372.5 million and the estimated
loss to the Deposit Insurance Fund (DIF) was $135.8 million. As of August 27, 2010, the estimated loss
to the DIF had decreased to $129.7 million (or 35 percent of the Bank of Hiawassee’s total assets).

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Financial Reform Act), which amends section 38(k) of the Federal Deposit Insurance Act
(FDI Act) by increasing the threshold for a material loss review (MLR) from $25 million to $200 million
for losses that occur for the period January 1, 2010 through December 31, 2011. The Financial Reform
Act also requires the OIG to review all other losses incurred by the DIF to determine (a) the grounds
identified by the state or Federal banking agency for appointing the Corporation as receiver and (b)
whether any unusual circumstances exist that might warrant an in-depth review of the loss. At the time
the Financial Reform Act was enacted, our fieldwork and a draft of this report were substantially
complete. As a result, we decided to complete the audit as an in-depth review and issue this report.

Consistent with the Financial Reform Act and the FDI Act provisions described above, the objectives of
this review were to (1) determine the causes of the Bank of Hiawassee’s failure and the resulting loss to
the DIF and (2) evaluate the FDIC’s supervision of the Bank of Hiawassee, including the FDIC’s
implementation of the PCA provisions of section 38 of the FDI Act.


Background
The Bank of Hiawassee, headquartered in Hiawassee, Georgia, was a state nonmember bank that opened
for business on July 21, 1909 and was insured by the FDIC on January 1, 1934. The bank was wholly-
owned by Chatuge Bank Shares, Inc., a one-bank holding company. The directorate owned 26 percent of
the company, and Stoinoff Investments, a local family-held interest, owned 33 percent. The bank
operated five offices in Towns, Fannin, and Union Counties, Georgia. The Fannin County location
operated under the business name of Bank of Blue Ridge, and the Union County location operated under
the name of Bank of Blairsville.

The Bank of Hiawassee historically operated as a traditional community bank. Beginning in 2001, the
bank’s management began pursuing growth centered in commercial real estate (CRE) with a focus on
acquisition, development, and construction (ADC) lending, with the ADC portfolio growing from 14
percent of total loans in 2000 to 48 percent in 2007. The majority of the ADC loan growth occurred in
2005 and 2006 and was funded with non-core funding sources, including brokered deposits and Federal
Home Loan Bank advances.

Audit Results
Causes of Failure and Material Loss

The Bank of Hiawassee’s deterioration was attributed primarily to weak Board and management
oversight of its increasing CRE, and in particular, ADC loan concentrations. Specifically, the Board and
management did not establish effective risk management practices commensurate with the risks


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      In-Depth Review of the Failure of the Bank of
                                      Hiawassee, Hiawassee, Georgia
                                                                                        Report No. IDR-11-002
                                                                                               November 2010

associated with this lending, which included speculative construction lending for vacation homes in
southern North Carolina and northern Georgia. Further, although the bank was considered Well
Capitalized until June 30, 2009, capital levels did not support the risks associated with its high CRE and
ADC concentrations. As the economy and real estate market started to decline, the bank’s loan losses and
increases in the allowance for loan and lease losses (ALLL) eroded capital, weakened liquidity, and led to
negative earnings. Although the holding company injected $8 million in capital in 2005 to support loan
growth, it was unable to provide additional financial support for the bank or raise additional capital
through other sources once the economy and real estate market declined. In addition, the bank
increasingly relied upon the use of potentially volatile non-core funding to support its loan growth. The
GDBF closed the Bank of Hiawassee on March 19, 2010 because the institution was unable to raise
sufficient capital to support its operations.

The FDIC’s Supervision of the Bank of Hiawassee

The FDIC, in coordination with the GDBF, provided ongoing supervisory oversight of the Bank of
Hiawassee through regular onsite risk management examinations and two visitations. Through its
supervisory efforts, the FDIC identified key risks in the Bank of Hiawassee’s operations and brought
these risks to the attention of the bank’s Board and management through examination and visitation
reports. Such risks included the institution’s significant CRE and ADC concentrations, weak credit
administration and loan underwriting practices, and reliance on potentially volatile funding sources.
Examiners also reported apparent violations of laws and regulations and contraventions of interagency
policy and guidance associated with the institution’s lending practices. As a result of the 2006
examination, the Bank of Hiawassee’s Board adopted a Bank Board Resolution. In addition, based on the
results of a 2008 visitation, the FDIC and the GDBF issued a Cease and Desist Order.

In hindsight, a more critical assessment of the bank’s risks and performance and additional supervisory
action to address high concentrations in CRE and ADC loans, increased reliance on non-core funding to
support growth, and weak credit administration and loan underwriting practices, may have been
warranted from 2005 to 2007. Such actions could have included lowering key supervisory ratings,
obtaining an earlier commitment from the Board to diversify the bank’s loan portfolio and requiring
progress reports on those efforts, and/or requiring the bank to maintain higher capital levels
commensurate with those risks associated with high CRE and ADC concentrations. The FDIC’s
supervision of the bank may have also benefited from taking additional supervisory action at the 2007
examination to address emerging risks and declining trends that were identified in several aspects of the
bank’s operations.

The FDIC has taken a number of actions to enhance its supervision program based on the lessons it has
learned from institution failures during the financial crisis. With respect to the issues discussed in this
report, the FDIC has, among other things, reiterated broad supervisory expectations for managing risks
associated with CRE and ADC loan concentrations to its supervised institutions and examiners. The
FDIC has also recently provided training to its examination workforce wherein the importance of
assessing an institution’s risk management practices on a forward-looking basis was emphasized.

With respect to PCA, based on the supervisory actions taken, we determined that the FDIC properly
implemented applicable PCA provisions of section 38. The Bank of Hiawassee was unsuccessful in
raising needed capital and was subsequently closed on March 19, 2010.



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                     In-Depth Review of the Failure of the Bank of
                                     Hiawassee, Hiawassee, Georgia
                                                                                    Report No. IDR-11-002
                                                                                           November 2010


Management Response
On October 21, 2010, the Director, DSC, provided a written response to the draft report. DSC reiterated
the OIG’s conclusions regarding the causes of the Bank of Hiawassee’s failure. With respect to our
assessment of the FDIC’s supervision of the Bank of Hiawassee, DSC summarized supervisory activities
from 2005 to 2010 described in our report, including onsite examinations, offsite monitoring, and the
issuance of a formal enforcement action in 2008. In recognition of the threat that institutions with high
risk profiles, such as the Bank of Hiawassee, pose to the DIF, DSC stated it has issued guidance to
financial institutions that reemphasizes the importance of robust credit risk management practices for
institutions with concentrated CRE exposures. DSC also stated that it has issued guidance to enhance the
supervision of institutions that rely on volatile non-core funding.




                                 To view the full report, go to www.fdicig.gov
                                Contents
                                                                      Page
Background                                                              2

Causes of Failure and Loss                                              3
  Board and Management Oversight and Risk Management Practices          4
  CRE and ADC Concentrations                                            4
  Capital Levels Compared to Risk Profile                               7
  Non-Core Funding                                                      8

The FDIC’s Supervision of the Bank of Hiawassee                         9
   Supervisory History                                                 10
   Supervisory Response to Key Risks                                   12
   Implementation of PCA                                               16

Corporation Comments                                                   18

Appendices 
  1. Objectives, Scope, and Methodology                                19
  2. Glossary of Terms                                                 22
  3. Acronyms                                                          25
  4. Corporation Comments                                              26

Tables
   1. Selected Financial Information for the Bank of Hiawassee,         3
      2005-2009
   2. The Bank of Hiawassee’s ADC Concentrations Compared to            6
      Peer Group
   3. The Bank of Hiawassee’s CRE Concentrations Compared to            6
      Peer Group
   4. The Bank of Hiawassee’s Adversely Classified Assets               7
   5. The Bank of Hiawassee’s Capital Ratios Compared to Peer Group     8
   6. The Bank of Hiawassee’s Funding Sources                           9
   7. The Bank of Hiawassee’s Examination History, 2005 to 2009        11
   8. The Bank of Hiawassee’s Capital Levels                           16

Figure
   Composition of the Bank of Hiawassee’s Loan Portfolio                5
Federal Deposit Insurance Corporation                                         Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     November 2, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  In-Depth Review of the Failure of the Bank of Hiawassee,
                                          Hiawassee, Georgia (Report No. IDR-11-002)


The Georgia Department of Banking and Finance (GDBF) closed the Bank of Hiawassee
on March 19, 2010, and named the FDIC as receiver. On April 1, 2010, the FDIC
notified the Office of Inspector General (OIG) that the Bank of Hiawassee’s total assets
at closing were $372.5 million and the estimated loss to the Deposit Insurance Fund
(DIF) was $135.8 million. As of September 3, 2010, the estimated loss to the DIF had
decreased to $128 million (or 34 percent of the Bank of Hiawassee’s total assets).

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Financial Reform Act), which amends section 38(k) of the
Federal Deposit Insurance Act (FDI Act) by increasing the threshold for a material loss
review (MLR) from $25 million to $200 million for losses that occur for the period
January 1, 2010 through December 31, 2011. The Financial Reform Act also requires the
OIG to review all other losses incurred by the DIF to determine (a) the grounds identified
by the state or Federal banking agency for appointing the Corporation as receiver and
(b) whether any unusual circumstances exist that might warrant an in-depth review of the
loss. At the time the Financial Reform Act was enacted, our fieldwork and a draft of this
report were substantially complete. As a result, we decided to complete the audit as an
in-depth review and issue this report.

Consistent with the Financial Reform Act and the FDI Act provisions described above,
the objectives of this review were to (1) determine the causes of the Bank of Hiawassee’s
failure and the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of the
Bank of Hiawassee, including the FDIC’s implementation of the Prompt Corrective
Action (PCA) provisions of section 38 of the FDI Act. This report presents our analysis
of the Bank of Hiawassee’s failure and the FDIC’s efforts to ensure that the Board of
Directors (Board) and management operated the institution in a safe and sound manner.
The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of institution failures are identified in our material loss and
in-depth reviews, we will communicate those to FDIC management for its consideration.
As resources allow, we may also conduct more comprehensive reviews of specific
aspects of the FDIC’s supervision program and make recommendations as warranted.1

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms,
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System, otherwise known as the CAMELS ratings. Appendix 3
contains a list of acronyms. Appendix 4 contains the Corporation’s comments on this
report.

Background
The Bank of Hiawassee, headquartered in Hiawassee, Georgia, was a state nonmember
bank that opened for business on July 21, 1909 and was insured by the FDIC on
January 1, 1934. The bank was wholly-owned by Chatuge Bank Shares, Inc., a one-bank
holding company. The bank’s directorate owned 26 percent of the holding company, and
Stoinoff Investments, a local family-held interest, owned 33 percent. The bank operated
five offices in Towns, Fannin, and Union Counties, Georgia. The Fannin County
location operated under the business name of Bank of Blue Ridge, and the Union County
location operated under the name of Bank of Blairsville.

The Bank of Hiawassee historically operated as a traditional community bank.
Beginning in 2001, the bank’s management began pursuing growth centered in
commercial real estate (CRE) with a focus on acquisition, development, and construction
(ADC) lending, with the ADC portfolio growing from 14 percent of total loans in 2000 to
48 percent of total loans in 2007. The majority of the ADC loan growth occurred in 2005
and 2006 and was funded with non-core funding sources, including brokered deposits and
Federal Home Loan Bank (FHLB) advances. Table 1 summarizes selected financial
information pertaining to the Bank of Hiawassee for the year ended 2009 and for the 4
preceding calendar years.




1
A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.
                                                    2
Table 1: Selected Financial Information for the Bank of Hiawassee, 2005 - 2009
        Financial
        Measure            Dec-09         Dec-08          Dec-07          Dec-06          Dec-05

    Total Assets ($000s)   $377,779       $434,284       $435,593        $422,862         $368,827

    Total Loans ($000s)    $281,939       $338,692       $359,730        $358,373         $309,142
       Total Deposits
          ($000s)          $339,597       $366,890       $354,186        $343,794         $289,569
     Net Income (Loss)
          ($000s)          ($30,665)      ($6,834)         $5,287         $4,920           $3,023
      FHLB Advances
          ($000s)          $30,000        $32,000         $38,000         $38,500         $45,000
     Brokered Deposits
          ($000s)          $45,168        $90,823         $59,156         $33,210         $35,120

      Past Due Ratio       35.82%         22.63%           .85%            .82%            1.77%
     Total Risk-Based
       Capital/Risk
     Weighted Assets        3.03%         10.32%          11.76%          10.83%           11.20%
Source: Uniform Bank Performance Reports (UBPR) for the Bank of Hiawassee.


Causes of Failure and Loss
The Bank of Hiawassee’s failure was attributed primarily to weak Board and
management oversight of its high CRE and ADC loan concentrations. Specifically, the
Board and management did not establish risk management practices commensurate with
the risks associated with this lending, which included speculative construction lending for
vacation homes in southern North Carolina and northern Georgia.2 Weak loan
underwriting and credit administration practices contributed to the asset quality problems
that developed when the bank’s real estate lending markets deteriorated. Further,
although the bank was considered Well Capitalized until June 30, 2009, capital levels did
not support the risks associated with its high CRE and ADC concentrations.

As the economy and real estate market started to decline, the bank’s loan losses and
increases in the allowance for loan and lease losses (ALLL) eroded capital, weakened
liquidity, and led to negative earnings. Despite the fact that the holding company injected
$8 million in capital during 2005 to support loan growth, it was unable to provide
additional financial support for the bank or raise additional capital through other sources
once the economy and real estate market declined. In addition, the bank increasingly
relied upon the use of potentially volatile non-core funding sources to support its loan
growth. The GDBF closed the Bank of Hiawassee on March 19, 2010 because the
institution was unable to raise sufficient capital to support its operations.




2
  Speculative construction lending involves the financing of projects for which a buyer has not yet been
identified.
                                                      3
Board and Management Oversight and Risk Management Practices

The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall responsibility
and authority for formulating sound policies and objectives for the institution and for
effectively supervising the institution’s affairs. Executive officers, such as the President
and Chief Executive Officer and the Chief Lending Officer, have primary responsibility
for managing the day-to-day operations and affairs of the bank.

As discussed more fully in subsequent sections of this report, the Bank of Hiawassee’s
Board and management did not effectively manage the risks associated with the
institution’s CRE and ADC loan concentrations, including increased speculative lending
for vacation homes in North Carolina and Georgia. Specifically, examiners determined
that the Bank of Hiawassee had credit administration deficiencies at each examination
from 2005 to 2009; loan underwriting weaknesses in 2006, 2008, and 2009; and various
violations of laws and regulations and contraventions of statements of policy in 2005,
2006, and 2009. Notably, examiners cited the bank for loans that exceeded the loan-to-
value limits at three examinations and appraisal violations at two examinations.

According to examiners, turnover in senior management positions was a cause for
regulatory concern. Specifically, a new management team was hired in 2005 that
included a President/Director, Senior Vice President/Chief Financial Officer, and Senior
Vice President/Chief Credit Officer. These individuals represented the bank’s third
management team since 2001.

CRE and ADC Concentrations

The Bank of Hiawassee’s growth strategy led to concentrations in CRE and ADC loans,
which, coupled with inadequate credit administration and loan underwriting practices,
ultimately caused the bank to fail. The Bank of Hiawassee experienced significant asset
growth—increasing from $155 million at year-end 1999 to over $435 million at year-end
2007. To fund the growth, the bank became increasingly reliant on non-core funding
sources, especially brokered deposits, which increased from zero in 2002 to $19 million
in 2005 to over $90 million in 2008.

The figure on the next page illustrates the general composition and growth of the Bank of
Hiawassee’s loan portfolio in the years preceding the institution’s failure.




                                              4
Figure: Composition of the Bank of Hiawassee’s Loan Portfolio


                                          $400

                                          $350
  Gross Loans and Leases (Millions)




                                          $300
                                                            $168                                          ADC
                                                                         $178       $148                  CRE
                                          $250    $128
                                                                                                          Other Loans
                                                                                            $108

                                          $200

                                                   $69       $77                    $84
                                          $150                            $74                $77

                                          $100

                                                  $112      $113         $108      $107      $96
                                          $50

                                           $0
                                                 Dec-05    Dec-06       Dec-07    Dec-08   Dec-09

                                                                   Period Ended


Source: OIG analysis of Consolidated Reports of Condition and Income (Call Reports) for
        the Bank of Hiawassee.

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued joint guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). Although the Joint Guidance does not establish specific CRE lending
limits, it does define criteria that the agencies use to identify institutions potentially
exposed to significant CRE concentration risk. According to the Joint Guidance, an
institution that has experienced rapid growth in CRE lending, has notable exposure to a
specific type of CRE, or is approaching or exceeds the following supervisory criteria may
be identified for further supervisory analysis of the level and nature of its CRE
concentration risk:

                                      •    Total CRE loans representing 300 percent or more of total capital where the
                                           outstanding balance of the institution’s CRE loan portfolio has increased by
                                           50 percent or more during the prior 36 months; or

                                      •    Total loans for construction, land development, and other land (referred to in this
                                           report as ADC) representing 100 percent or more of total capital.

As of December 31, 2005, the Bank of Hiawassee’s non-owner occupied CRE loans and
ADC loans represented 602 percent and 360 percent, respectively, of the institution’s
total capital. This trend continued through December 2008 when non-owner occupied
CRE loans and ADC loans represented 662 percent and 391 percent, respectively, of the
institution’s total capital. These levels are significantly higher than the criteria defined in
the Joint Guidance as possibly warranting further supervisory analysis.
                                                                                   5
In addition, the Bank of Hiawassee’s concentrations in ADC and CRE loans were well
above the institution’s peer group3 averages. Table 2 and Table 3 illustrate the trend in
the bank’s ADC and CRE loan concentrations, respectively, relative to total capital and
total loans as compared to the institution’s peer group.

Table 2: The Bank of Hiawassee’s ADC Concentrations Compared to Peer Group
                             ADC Loans as a                                ADC Loans as a
                          Percent of Total Capital                      Percent of Total Loans
      Period
      Ended                                     Bank of                                     Bank of
                     Bank of       Peer                             Bank of      Peer
                                              Hiawassee                                   Hiawassee
                    Hiawassee     Group                            Hiawassee    Group
                                              Percentile                                   Percentile
    Dec 2005          360%            104%             96              41%            14%            94
    Dec 2006          415%            117%             97              47%            16%            95
    Dec 2007          398%            124%             97              49%            16%            97
    Dec 2008          391%            111%             97              44%            14%            97
    Dec 2009         1,151%*           85%             99              38%            11%            98
Source: UBPR data for the Bank of Hiawassee.
*The ADC concentration percentage was high because capital had declined to an extremely low
level, rather than because of asset growth.

Table 3: The Bank of Hiawassee’s CRE Concentrations Compared to Peer Group
                             CRE Loans as a                                 CRE Loans as a
                          Percent of Total Capital                      Percent of Total Loans
      Period
      Ended                                     Bank of                                     Bank of
                     Bank of       Peer                             Bank of      Peer
                                              Hiawassee                                   Hiawassee
                    Hiawassee     Group                            Hiawassee    Group
                                              Percentile                                   Percentile
    Dec 2005           603%           358%             91              69%            49%            85
    Dec 2006           660%           372%             95              75%            50%            88
    Dec 2007           608%           377%             89              76%            51%            89
    Dec 2008           662%           380%             92              74%            50%            90
    Dec 2009         1,975%**         356%             99              66%            48%            83
    Source: UBPR data for the Bank of Hiawassee.
    * Percentages for the Bank of Hiawassee and peers include owner-occupied CRE.
**The CRE concentration percentage was high because capital had declined to an extremely low
level, rather than because of asset growth.

From 2005 to 2007, the Bank of Hiawassee’s adversely classified assets ranged from
approximately 18 percent to 31 percent of Tier 1 Capital and reserves, and past due and
nonaccrual loans were 1 percent to 3 percent of total loans. Regulators considered both
of these levels to be manageable and of limited supervisory concern.

However, ADC lending involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. These risks generally include adverse
changes in market conditions between the time an ADC loan is originated and the time
construction is completed, as well as the inherent difficulty of accurately estimating the
cost of construction and the value of completed properties in future periods. Due to these

3
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. The Bank of Hiawassee’s peer group
included insured commercial banks having assets between $300 million and $1 billion.
                                                       6
and other risk factors, ADC loans generally require greater effort to effectively evaluate
and monitor than other types of loans.

Indeed, during 2008, the depressed housing market began to negatively impact the quality
of the Bank of Hiawassee’s assets, particularly its ADC loan portfolio. By 2009, the
bank’s asset quality had become critically deficient, with problems centered in ADC
loans secured by homes and real estate in northern Georgia and southern North Carolina.
As borrowers defaulted on loans, the bank’s other real estate owned (OREO)4 increased
from $1.3 million at year-end 2005 to more than $15 million by year-end 2009. Further,
as shown in Table 4, the bank’s adversely classified assets and past due and nonaccrual
loans percentages significantly increased in 2008 and 2009.

Table 4: The Bank of Hiawassee’s Adversely Classified Assets
                                        Adversely Classified           Past-Due and Nonaccrual
        Examination Year
                                             Assets*                           Loans**
    2005                                          25%                            2%
    2006                                          18%                            1%
    2007                                          31%                            3%
    2008 (Visitation)                            115%                           12%
    2009                                         233%                           20%
    2009 (Visitation)                            318%                           26%
Source: ROEs for the Bank of Hiawassee.
*Ratio is a percentage of Tier 1 Capital and reserves.
**Ratio is a percentage of total loans.

Examiners noted in the May 2009 examination report that the bank’s viability had
become contingent on the recovery of secondary home markets. Examiners also
indicated that, in an attempt to keep loans current, bank management had converted an
inordinate number of loans to interest-only payments even though the development of
underlying projects had ceased in most cases. Examiners found further deterioration in
the bank’s loan portfolio at the final visitation in December 2009.


Capital Levels Compared to Risk Profile

From 2005 to 2008, the Bank of Hiawassee’s ADC concentration was at least triple that
of its peer group, and the CRE concentrations were significantly higher than its peer
group. However, the bank’s capital ratios were near or below those of its peer group. In
addition, the Bank of Hiawassee’s Total Risk-Based Capital only exceeded Well
Capitalized levels by a slight margin. Table 5 shows the Bank of Hiawassee’s capital
ratios compared to its peer group.




4
    OREO is property taken over by a bank through loan foreclosures.
                                                     7
Table 5: The Bank of Hiawassee’s Capital Ratios Compared to Peer Group
                                                           Tier 1 Risk-Based             Total Risk-Based
                        Tier 1 Leverage Capital                  Capital                      Capital
    Period Ended        Hiawassee       Peer               Hiawassee      Peer          Hiawassee     Peer
       12/31/04              8.22            9.31              9.94           13.71        11.13         14.86
       12/31/05              9.11            8.88              10.23          11.78        11.20         12.95
       12/31/06              8.67            9.02              9.68           11.75        10.83         12.89
      12/31/07*              9.38            9.06              10.62          11.62        11.76         12.73
       12/31/08              7.78            8.75              9.08           11.4         10.32         12.60
       12/31/09              1.35            8.67              1.75           11.91         3.03         13.19
Source: UBPRs for the Bank of Hiawassee.
*Ratios increased due to slower asset growth and improved earnings.

The Examination Manual states that institutions should maintain capital commensurate
with the level and nature of risks to which they are exposed. In addition, the amount of
capital necessary for safety and soundness purposes may differ significantly from the
amount needed to maintain a Well Capitalized or Adequately Capitalized position for
purposes of PCA.

While risk in the Bank of Hiawassee’s ADC loan portfolio increased significantly
between 2005 and 2008, the institution’s capital ratios did not increase proportionally to
that risk. By 2008, examiners were reporting that the bank’s capital position was less
than satisfactory to provide for the risks inherent in the bank’s loan portfolio and
deficient earnings. Had the Bank of Hiawassee maintained higher capital ratios
commensurate with its risk profile, the bank would have been better positioned to absorb
losses in its loan portfolio and limit the loss to the DIF.5

Non-Core Funding

In the years preceding its failure, the Bank of Hiawassee became increasingly dependent
on non-core funding sources to support loan growth and maintain adequate liquidity.
When properly managed, such funding sources offer important benefits, such as ready
access to funding in national markets when core deposit growth in local markets lags
planned asset growth. However, non-core funding sources also present potential risks,
such as higher costs and increased volatility. According to the Examination Manual,
placing heavy reliance on potentially volatile funding sources to support asset growth is
risky because access to these funds may become limited during distressed financial or
economic conditions. Under such circumstances, institutions could be required to sell
assets at a loss in order to fund deposit withdrawals and other liquidity needs.

Beginning in 2004, the Bank of Hiawassee began to increasingly rely on non-core
potentially volatile funding sources, including large time deposits, brokered deposits, and
FHLB borrowings to fund strong loan growth that had outpaced core deposits. In

5
 The Bank of Hiawassee’s estimated loss rate of 35 percent is higher than the average estimated loss rate
of 24 percent for all insured institutions that failed between January 1, 2008 and July 31, 2010. (The
average loss rate does not include the failure of Washington Mutual.) The Bank of Hiawassee’s loss rate
also exceeds the average estimated loss rate of 28 percent for institutions in the state of Georgia that failed
between January 1, 2008 and July 31, 2010.
                                                         8
addition, the bank relied on volatile Internet certificates of deposit (CDs). Table 6
provides details on the bank’s core and non-core funding sources during the years prior to
its failure.

Table 6: The Bank of Hiawassee’s Funding Sources
                                                 Time Deposits
                                                  $100,000 or          Brokered             FHLB
                             Core Deposits           More              Deposits          Borrowings
 Period Ended                  ($000s)*             ($000s)             ($000s)            ($000s)
 December 2003                   153,456                32,023              0               34,227
 December 2004                   175,110                41,599            6,588             40,453
 December 2005                   200,733                88,836           35,120             45,000
 December 2006                   218,867               124,927           33,210             38,500
 December 2007                   274,169                80,016           59,156             38,000
 December 2008                   299,910                66,981           90,823             32,000
 December 2009                   258,387                81,210           45,168             30,000
Source: UBPR data for the Bank of Hiawassee.
*Core deposits may include some deposits of less than $100,000 obtained through the bank’s use of an
Internet listing service and brokered deposits representing time deposits of less than $100,000.

In 2006, examiners first noted that the bank’s liquidity posture was strained because of a
high dependence on non-core funding. Further, the bank continued to be in apparent
violation of the State of Georgia’s regulation regarding the statutory limit on borrowings,
a repeat finding from the 2005 examination. By 2008, the bank’s liquidity position had
weakened because of the significant decrease in asset quality and deficient earnings, and
examiners were concerned that the bank’s strained financial condition and asset quality
concerns might impede the institution’s ability to attract funds in the open market on
reasonable terms. Finally, in 2009, bank management’s decision to rely on non-core
funding negatively impacted the bank’s liquidity position because the bank was no longer
able to accept, renew, or roll over brokered deposits without a waiver from the FDIC.
The bank’s unsecured lines of credit were also canceled.

The FDIC’s Supervision of the Bank of Hiawassee

The FDIC, in coordination with the GDBF, provided ongoing supervisory oversight of
the Bank of Hiawassee through regular onsite risk management examinations and two
visitations. Through its supervisory efforts, the FDIC identified key risks in the Bank of
Hiawassee’s operations and brought these risks to the attention of the bank’s Board and
management through examination and visitation reports. Such risks included the
institution’s significant CRE and ADC concentrations, weak credit administration and
loan underwriting practices, and reliance on potentially volatile funding sources.
Examiners also reported apparent violations of laws and regulations and contraventions
of interagency policy and guidance associated with the institution’s lending practices. As
a result of the 2006 examination, the Bank of Hiawassee’s Board adopted a Bank Board
Resolution (BBR). In addition, based on the results of a 2008 visitation, the GDBF and
the FDIC issued a Cease and Desist Order (C&D).


                                                   9
In hindsight, a more proactive assessment of the bank’s risks and performance and
additional supervisory action to address high concentrations in CRE and ADC loans,
increased reliance on non-core funding to support growth, and weak credit administration
and loan underwriting practices, may have been warranted from 2005 to 2007. Such
actions could have included lowering key supervisory ratings, obtaining an earlier
commitment from the Board to diversify the bank’s loan portfolio and requiring progress
reports on those efforts, and/or requiring the bank to maintain higher capital levels
commensurate with the risks associated with high CRE and ADC concentrations. The
FDIC’s supervision of the bank may have also benefited from taking additional
supervisory action at the 2007 examination to address emerging risks and declining
trends that were identified in several aspects of the bank’s operations.

The FDIC has taken a number of actions to enhance its supervision program based on the
lessons it has learned from institution failures during the financial crisis. With respect to
the issues discussed in this report, the FDIC has, among other things, reiterated broad
supervisory expectations for managing risks associated with CRE and ADC loan
concentrations to its supervised institutions and examiners. The FDIC has also recently
provided training to its examination workforce wherein the importance of assessing an
institution’s risk management practices on a forward-looking basis was emphasized.

Supervisory History

From 2005 to 2009, the FDIC and the GDBF conducted three examinations of the Bank
of Hiawassee. In addition, the FDIC and the GDBF conducted a joint visitation in
November 2008, and the FDIC conducted a final visitation in December 2009. The FDIC
and the GDBF also pursued enforcement actions, including a BBR and a C&D. Table 7
summarizes key supervisory information pertaining to these examinations, visitations,
and enforcement actions.




                                             10
Table 7: The Bank of Hiawassee’s Examination History, 2005 to 2009
    Examination                               Supervisory         Contraventions
                                                Ratings               and/or
     Start Date            Agency               (UFIRS)             Violations           Supervisory Action

      10/17/05              GDBF                222222/2                   9                     None
                                                                           9                   BBR**
      10/30/06               FDIC               223232/2
                                                                                         Effective 1/17/2007
                                                                                              Monitored
      10/29/07              GDBF                222122/2                 None            compliance with the
                                                                                              BBR.***
                         FDIC-GDBF                                 Not Applicable*             C&D.**
      11/17/08                                  443443/4
                          Visitation                                                      Effective 3/2/2009
                                                                                              Monitored
      5/11/09            FDIC-GDBF              555544/5                   9             compliance with the
                                                                                                 C&D
                                                                                             Continued to
                            FDIC
      12/14/09                                  554544/5           Not Applicable*       monitor compliance
                           Visitation
                                                                                            with the C&D
Source: The FDIC’s Virtual Supervisory Information on the Net and ROEs for the Bank of Hiawassee.
*The scope of the visitations did not include reviewing the bank’s compliance with laws and regulations.
**Informal enforcement actions often take the form of BBRs or Memoranda of Understanding (MOU).
Formal enforcement actions often take the form of C&Ds but under severe circumstances can also take the
form of insurance termination proceedings.
***The bank was released from the BBR by the GDBF on December 17, 2007 and by the FDIC on
January 16, 2008.

At the 2006 examination, examiners determined that (1) management’s responses to
deficiencies from prior regulatory examination reports and external audits were
unsatisfactory; (2) risk management practices needed improvement, particularly in the
areas of loan administration, audits, and funds management; and (3) liquidity was
strained, with a significant increase in dependence on non-core funding to support rapid
growth. As a result, the bank’s Management and Liquidity components were each
downgraded to a “3”, and the Board agreed to adopt a BBR.

The FDIC also conducted offsite monitoring of the Bank of Hiawassee in 2008.6
Specifically, the Bank of Hiawassee first appeared on the FDIC’s offsite review list in
March 2008 because the bank’s risk profile involved high concentrations, an increased
past-due ratio, a high percentage of brokered deposits to total assets, and significant
ALLL provisions. For the first two quarters of 2008, the bank’s risk was considered
medium and increasing, but the FDIC did not contact bank management. However, the
FDIC did schedule a visitation in November 2008 to assess the bank’s risks.



6
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions experiencing rapid growth and/or a
funding structure highly dependent on non-core funding sources.

                                                       11
Based on the significant decline in the bank’s condition at the November 2008 visitation,
the bank was downgraded in all CAMELS components, and the GDBF, in consultation
with the FDIC, began pursuing a C&D for unsafe and unsound banking practices. The
C&D became effective on March 2, 2009. Among other things, the C&D required the
institution to:

    •   increase Board participation in the affairs of the bank, assuming full
        responsibility for approval of sound policies and objectives and for the
        supervision of all of the bank’s activities;

    •   maintain a Tier 1 Leverage Capital ratio of not less than 8 percent and a Total
        Risk-Based Capital ratio of at least 10 percent;

    •   reduce adversely classified assets;

    •   reduce concentrations of credit; and

    •   establish a comprehensive policy for determining the adequacy of the ALLL.

The May 2009 examination found further deterioration in the bank’s condition, and the
December 2009 visitation confirmed that the bank’s condition was continuing to
deteriorate. The bank was closed 3 months later.

Supervisory Response to Key Risks

Historically, the Bank of Hiawassee had been considered a well-performing institution
and received composite “2” supervisory ratings from 2005 through 2007. Examiners
identified key risks and made recommendations to address certain of those risks at each
examination. Bank management provided written responses to examiner
recommendations and, as a result, follow-up occurred at the next regularly-scheduled
examination. In hindsight, however, a more proactive approach to the bank’s risks and
performance during this time frame may have been prudent.

October 2005 GDBF Examination

Examiners reported that the bank’s overall condition was satisfactory and assigned a “2”
rating to all CAMELS components and the overall composite score. A “2” rating
indicates satisfactory board and management performance and satisfactory capital levels
relative to the bank’s risk profile. In contrast with that definition, the Bank of
Hiawassee’s risks included the following:

   •    The bank’s liquidity and capital positions continued to be hampered due to strong
        asset growth.

   •    There was improper monitoring of CRE and ADC concentrations.

                                               12
       •   Credit administration deficiencies were noted.

       •   Thirteen recommendations were made for improvements to the Loan Policy.

       •   The bank was operating with its third senior management team since 2001.7

       •   There was increased reliance on brokered deposits and Internet CDs.

       •   Violations of laws and regulations were noted.

       •   The bank lacked a written budget and strategic plan and needed to develop a
           written Capital Plan and to improve investment and asset and liability
           management policies.

In addition, we noted that, since the 2004 examination, loan growth went from
approximately $207 million to over $285 million (a 38-percent increase), with ADC
loans increasing from approximately $59 million to over $103 million (a 76-percent
increase).

October 2006 FDIC Examination

As a result of this examination, the FDIC downgraded the Management and Liquidity
components to a “3” and asked the Bank of Hiawassee’s management to adopt a BBR,
which it did, effective January 17, 2007. However, the bank’s Capital and composite
ratings remained a “2”. Given the following risks that existed at the time of this
examination, the bank’s capital and overall performance may have warranted greater
supervisory concern.

       •   Rapid Growth. From June 30, 2005, to June 30, 2006, the bank’s ADC loan
           portfolio had grown by 75 percent, amounting to approximately 618 percent of
           Tier 1 Capital. The net non-core dependence ratio had increased from 38 percent
           to 43 percent. In that regard, brokered deposits increased from $19 million to
           over $46 million.

       •   Capital Ratios. The bank’s capital ratios had changed from an overall upward
           trend at year-end 2005 to an overall declining trend at the quarter ending June
           2006.

In addition, examiners identified several deficiencies related to the bank’s lending, which
included: (1) loan underwriting, (2) a high volume of loans with technical exceptions (a
repeat finding from the prior two examinations), and (3) no limits for ADC lending in the
loan policy.


7
    FDIC officials stated that significant management turnover is cause for regulatory concern.
                                                       13
In connection with the bank’s high CRE and ADC concentrations, the Board and
management agreed in the BBR to (1) implement a sufficient system for tracking and
monitoring the volume of residential ADC commitments by risk categories, including
segments of speculative, pre-sold, and owner-occupied projects; (2) provide loan
concentration reports and “aging” reports to the Board at least quarterly; (3) amend the
loan policy to prohibit over-funding construction loans and require routine inspections on
construction projects before loan draws are approved; (4) institute a program for reducing
the volume of loan-to-value exceptions in order to comply with the aggregate limitations
contained in Appendix A of Part 365 of the FDIC Rules and Regulations; and
(5) implement appropriate processes to reduce the volume of loan documentation
exceptions. Although the lack of an ADC lending limit was identified as a deficiency in
the loan policy, the BBR did not include a provision to revise the loan policy to include
such a limit. At the time the BBR was being developed, the Bank of Hiawassee's CRE
and ADC concentrations (as of September 30, 2006) were 700 percent and 445 percent of
total capital, respectively.

October 2007 GDBF Examination

Examiners reported that the bank’s overall condition was satisfactory and upgraded the
Management and Liquidity components each to a “2” and assigned the bank an overall
composite rating of “2”. Further, examiners concluded that the bank was in compliance
with 11 of the 14 provisions contained in the BBR and had taken some action to address
the remaining three. As a result, the GDBF and the FDIC released the bank from the
BBR. A “2” rating for Management indicates that management’s and the Board’s
performance and risk management practices are satisfactory. A component rating of “2”
for Asset Quality also indicates satisfactory asset quality and credit administration
practices. The risks identified by examiners at the 2007 examination, which appear to be
greater than those contemplated by a “2” rating, included the following:

   •   Asset quality had declined, with adversely classified assets increasing from
       approximately 18 percent to approximately 31 percent. Further, the past-due ratio
       had increased from less than 1 percent to over 3 percent.

   •   CRE and ADC concentrations were 687 percent and 414 percent, respectively.

   •   Credit administration needed improvement, with the level of documentation
       exceptions still excessive. Further, management was not tracking loans that had
       interest reserves, and implementation of ADC disbursement and inspection
       procedures were needed.

   •   The bank remained Well Capitalized; however, the capital ratios were still not
       commensurate with risks associated in the loan portfolio and were lower than the
       bank’s peer group.

   •   Brokered deposits had increased from $47 million to over $62 million since the
       last examination.
                                            14
   •   Liquidity and dependency monitoring needed improvement.

           o Examiners recommended that management establish reasonable targets for
             the aggregate non-core funding ratio, a repeat recommendation.

           o Examiners noted that the dependency ratio represented approximately
             47 percent of total funding.

The GDBF’s ROE provided a detailed explanation supporting the termination of the
BBR. However, greater emphasis on the newly identified risks and deficient practices at
this examination may have been appropriate when assigning the bank’s ratings and
determining whether a new informal action was needed.

November 2008 Joint Visitation

A joint visitation targeted to assess the bank’s overall financial condition was conducted
because offsite analysis had identified declining trends in performance ratios. Negative
core earnings, increasing levels of OREO and nonaccrual loans, continued large
dividends, and a tightening liquidity position coupled with an increasing dependence on
non-core and potentially volatile liabilities all raised supervisory concern. ADC activity
had been adversely affected by the depressed housing market, and banks with large ADC
exposure had been negatively impacted. Examiners concluded that declining asset
quality was the primary threat facing the bank, resulting in weakened earnings, capital,
and liquidity positions. An immediate provision to the ALLL, which would erode capital
and reserves, was recommended given the asset quality and loan underwriting concerns.

As a result of the visitation findings, the bank’s component and composite ratings were
downgraded, and the GDBF, in consultation with the FDIC, initiated efforts to impose a
C&D. The C&D became effective on March 2, 2009.

May 2009 Joint Examination

Examiners found that the overall condition of the bank was critically deficient and
continued viability of the institution was threatened. Asset quality was poor, with past-
due loans, nonperforming assets, loan losses, and adversely classified assets at excessive
levels. In addition, the ALLL was underfunded by at least $2 million. Earnings were
critically deficient, due largely to high loan loss provisions and other expenses related to
excessive and increasing problem loans, and OREO, which had increased by over
112 percent from the November 2008 visitation. Capital was critically deficient in
relation to the risk profile and negative earnings. Liquidity was deficient as secondary
funding sources became restricted with management seeking to replace a significant
amount of maturing brokered deposits. As a result, the Capital, Asset Quality, and
Earnings components were downgraded to “5”; the Management component was double-
downgraded to a “5”; and a composite rating of “5” was assigned. Further, the March
2009 C&D remained in effect.

                                             15
December 2009 FDIC Visitation

The visitation was conducted to assess the overall financial condition of the institution
and confirm the assigned component and composite ratings. Examiners found that the
bank’s condition continued to deteriorate as losses on impaired loans were recognized,
with an additional provision of approximately $7 million needed to the ALLL. Imminent
failure was evident unless the bank was able to recapitalize through its proposed
$35 million stock offering. The composite rating and all component ratings remained the
same, with the exception of the Management rating, which was upgraded to a “4” to
recognize the initiatives undertaken by bank management since the May 2009
examination. The bank failed 3 months later.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately
capitalized. The FDIC is required to closely monitor the institution’s compliance with its
capital restoration plan, mandatory restrictions defined under section 38(e), and
discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of
PCA are being achieved. Based on the supervisory actions taken with respect to the Bank
of Hiawassee, we determined that the FDIC properly implemented applicable PCA
provisions of section 38.

The Bank of Hiawassee was considered Well Capitalized for PCA purposes until June 30,
2009. Table 8 illustrates the Bank of Hiwassee’s capital levels relative to the PCA
thresholds for Well Capitalized institutions for the quarter ending December 31, 2009,
and for the 4 preceding calendar years.

Table 8: The Bank of Hiawassee’s Capital Levels

  Period Ended        Tier 1          Tier 1 Risk-      Total Risk-      PCA Capital Category
                      Leverage        Based             Based
                      Capital         Capital           Capital
 Well-Capitalized      5 percent or    6 percent or     10 percent or
 Thresholds                more            more             more
 Bank of Hiawassee’s Capital Levels
      Dec-05             9.11              10.23            11.2        Well Capitalized
      Dec-06             8.67               9.68            10.83       Well Capitalized
      Dec-07             9.38              10.62            11.76       Well Capitalized
      Dec-08             7.78               9.08            10.32       Well Capitalized
      Dec-09             1.35               1.75             3.03       Critically Undercapitalized
Source: UBPRs for the Bank of Hiawassee.




                                                   16
The FDIC’s efforts to monitor the Bank of Hiawassee’s capital position and the
institution’s response to supervisory actions included the following:

       •   On August 5, 2009 and again on October 22, 2009, the FDIC issued a letter
           informing the bank that it was considered Adequately Capitalized. Based on the
           institution’s June 30, 2009 Call Report, its Tier 1 Leverage Ratio, Tier 1 Risk-
           Based Capital Ratio and Total Risk-Based Capital Ratio were 5.76 percent,
           7.08 percent, and 8.36 percent, respectively. The FDIC also informed the bank’s
           management that it could not accept, renew, or roll over brokered deposits unless
           it applied for and obtained a waiver by the FDIC.8

       •   On November 17, 2009, a letter from the FDIC informed the bank that it had
           fallen to Undercapitalized. Based on the institution’s September 30, 2009 Call
           Report, its Tier 1 Leverage Ratio, Tier 1 Risk-Based Capital Ratio, and Total
           Risk-Based Capital Ratio were 4.23 percent, 5.14 percent, and 6.42 percent,
           respectively. The FDIC reminded the bank’s management that the bank could not
           accept, renew or roll over any brokered deposit. The FDIC also informed the
           bank that, effective immediately, the bank was subject to restrictions on asset
           growth, dividends, other capital distributions, and management fees and that it
           was required to file a written capital restoration plan within 45 days.

       •   On December 28, 2009, the FDIC received the bank’s capital restoration plan,
           which indicated that the bank was trying to raise capital through a stock offering
           but needed to wait until April 2010 to provide the offering circular to prospective
           investors. On January 20, 2010, the FDIC notified the bank that the plan was not
           acceptable because of the length of time before the offering circular could be
           provided to prospective investors. The bank did not submit another plan before it
           failed.

       •   On February 1, 2010, the FDIC notified the bank that it was Critically
           Undercapitalized. Based on information provided to the FDIC in an email dated
           January 20, 2010, the bank’s key capital ratios as of January 15, 2010 were, as
           follows:

               o Tangible Equity Capital Ratio                   1.37%

               o Tier 1 Leverage Ratio                           1.37%

               o Tier 1 Risk-Based Capital Ratio                 1.80%

               o Total Risk-Based Capital Ratio                  3.09%

           The FDIC also informed the bank that it was subject to the mandatory
           requirements of Section 38, which included restrictions on asset growth,
           dividends, other capital distributions, certain activities, and management fees.
8
    FDIC officials stated that the bank’s management did not apply for a brokered deposit waiver at any time.
                                                      17
On November 13, 2008, the bank applied for funds under the Troubled Asset Relief
Program (TARP)9 but subsequently withdrew the application on February 26, 2009. On
March 19, 2010, the GDBF closed the Bank of Hiawassee.


Corporation Comments

On October 21, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. In its response,
DSC reiterated the OIG’s conclusions regarding the causes of the Bank of Hiawassee’s
failure. With regard to our assessment of the FDIC’s supervision of the Bank of
Hiawassee, DSC summarized supervisory activities from 2005 to 2010 described in our
report, including onsite examinations, offsite monitoring, and the issuance of a formal
enforcement action in 2008. In recognition of the threat that institutions with high risk
profiles, such as the Bank of Hiawassee, pose to the DIF, DSC stated that it has issued
guidance to financial institutions that reemphasizes the importance of robust credit risk
management practices for institutions with concentrated CRE exposures. DSC also stated
that it has issued guidance to enhance the supervision of institutions that rely on volatile
non-core funding.




9
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the United States Department of the Treasury (Treasury). Under
TARP, Treasury will purchase up to $250 billion of senior preferred shares from qualifying institutions as
part of the Capital Purchase Program.

                                                    18
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Objectives

The Financial Reform Act amends section 38(k) of the FDI Act by increasing the MLR
threshold from $25 million to $200 million for losses that occur for the period January 1,
2010 through December 31, 2011. The Financial Reform Act also requires the OIG to
review all other losses incurred by the DIF to determine (a) the grounds identified by the
state or Federal banking agency for appointing the Corporation as receiver and
(b) whether any unusual circumstances exist that might warrant an in-depth review of the
loss. At the time the Financial Reform Act was enacted, our fieldwork and a draft of this
report were substantially complete. Although the estimated loss for the Bank of
Hiawassee no longer met the threshold requiring an MLR, the OIG decided to complete
the audit and issue this report as an in-depth review.

Consistent with the Financial Reform Act and the FDI Act provisions described above,
the objectives of this review were to (1) determine the causes of the Bank of Hiawassee’s
failure and the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of the
Bank of Hiawassee, including the FDIC’s implementation of the PCA provisions of
section 38 of the FDI Act.

We conducted this performance audit from June 2010 to August 2010, in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of the Bank of Hiawassee’s operations from
2005 until it failed on March 19, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution during the same period. To accomplish the
objectives, we performed the following procedures and techniques:

•   Analyzed examination reports and other supervisory documents prepared by the
    FDIC and the GDBF from 2005 through December 2009.

•   Reviewed the following:

       •   Institution data in Call Reports, UBPRs, and other reports.

       •   FDIC and GDBF correspondence, including correspondence maintained in
           DSC’s Atlanta Regional Office.



                                            19
                                                                              Appendix 1

                   Objectives, Scope, and Methodology

       •   Relevant reports prepared by the Division of Resolutions and Receiverships
           (DRR) and DSC relating to the institution’s closure, including records
           maintained by DRR in the Jacksonville, FL office.

       •   Pertinent FDIC regulations, policies, procedures, and guidance.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, and
interviews of examiners to understand the Bank of Hiawassee’s management controls
pertaining to the causes of failure and material losses as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.
Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA. We performed limited tests
to determine compliance with certain aspects of the FDI Act and the FDIC Rules and
Regulations. The results of our tests are discussed, where appropriate, in the report.
Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
material loss review reports related to failures of FDIC-supervised institutions and these
                                            20
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

reports can be found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the
objectives of which are to (1) determine the actions that the FDIC has taken to enhance
its supervision program since May 2009, including those specifically in response to the
May 2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent material loss reviews.

In addition, with respect to more comprehensive coverage of specific issues, in May
2010, the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                            21
                                                                                    Appendix 2

                                 Glossary of Terms

Term                 Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development, and funding for acquiring and developing land for future construction, and
Construction     providing interim financing for residential or commercial structures.
(ADC) Loans
Adversely            Assets subject to criticism and/or comment in an examination report.
Classified Assets    Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for        The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease       book value of loans and leases to the amount that is expected to be
Losses (ALLL)        collected. It is established in recognition that some loans in the institution’s
                     overall loan and lease portfolio will not be repaid. Boards of directors are
                     responsible for ensuring that their institutions have controls in place to
                     consistently determine the allowance in accordance with the institutions'
                     stated policies and procedures, generally accepted accounting principles,
                     and supervisory guidance.
Call Report          The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                     1817(a)(1), which requires each insured State nonmember bank and each
                     foreign bank having an insured branch which is not a Federal branch to
                     make to the Corporation reports of condition in a form that shall contain
                     such information as the Board of Directors may require. These reports are
                     used to calculate deposit insurance assessments and monitor the condition,
                     performance, and risk profile of individual banks and the banking industry.

Cease and Desist     A C&D is a formal enforcement action issued by a financial institution
Order (C&D)          regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
                     stop an unsafe or unsound practice or a violation of laws and regulations.
                     A C&D may be terminated when the bank’s condition has significantly
                     improved and the action is no longer needed or the bank has materially
                     complied with its terms.
Concentration        A concentration is a significantly large volume of economically related
                     assets that an institution has advanced or committed to a certain industry,
                     person, entity, or affiliated group. These assets may, in the aggregate,
                     present a substantial risk to the safety and soundness of the institution.

FDIC’s               The FDIC’s supervision program promotes the safety and soundness of
Supervision          FDIC-supervised institutions, protects consumers’ rights, and promotes
Program              community investment initiatives by FDIC-supervised institutions. The
                     FDIC’s Division of Supervision and Consumer Protection (DSC) (1)
                     performs examinations of FDIC-supervised institutions to assess their
                     overall financial condition, management policies and practices (including
                     internal control systems), and compliance with applicable laws and
                     regulations and (2) issues related guidance to institutions and examiners.




                                              22
                                                                                  Appendix 2

                               Glossary of Terms


Loan-to-Value       A ratio for a single loan and property calculated by dividing the total loan
                    amount at origination by the market value of the property securing the
                    credit plus any readily marketable collateral or other acceptable collateral.

Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                    Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                    period beginning January 1, 2010 and ending December 31, 2011, a
                    material loss is defined as any estimated loss in excess of $200 million.

Memorandum of       An informal corrective administrative action for institutions considered to
Understanding       be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3”.

Offsite Review      The FDIC’s Offsite Review Program is designed to identify emerging
Program             supervisory concerns and potential problems so that supervisory strategies
                    can be adjusted appropriately. Offsite reviews are performed quarterly for
                    each bank that appears on the Offsite Review List. Regional management
                    is responsible for implementing procedures to ensure that Offsite Review
                    findings are factored into examination schedules and other supervisory
                    activities.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the Deposit Insurance
(PCA)               Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                    Federal Regulations, section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for determining capital adequacy and
                    taking supervisory actions against depository institutions that are in an
                    unsafe or unsound condition. The following terms are used to describe
                    capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action
                    or compliance with the PCA statute with respect to an institution that falls
                    within any of the three categories of undercapitalized institutions.




                                             23
                                                                             Appendix 2

                           Glossary of Terms


Tier 1 (Core)   In general, this term is defined in Part 325 of the FDIC Rules and
Capital         Regulations, 12 C.F.R. section 325.2(v), as
                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                undivided profits, disclosed capital reserves, foreign currency translation
                adjustments, less net unrealized losses on available-for-sale securities with
                readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4; and
                • Deferred tax assets in excess of the limit set forth in section 325.5(g).


Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)   The report is produced by the Federal Financial Institutions Examination
                Council for the use of banking supervisors, bankers, and the general public
                and is produced quarterly from data reported in Reports of Condition and
                Income submitted by banks.

Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in
Institutions    six components represented by the CAMELS acronym: Capital adequacy,
Rating System   Asset quality, Management practices, Earnings performance, Liquidity
                position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)
                composite score, is assigned a rating of 1 through 5, with 1 having the least
                regulatory concern and 5 having the greatest concern.




                                        24
                                                                               Appendix 3

                                  Acronyms


ADC      Acquisition, Development, and Construction

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to Market
         Risk

CD       Certificate of Deposit

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

GDBF     Georgia Department of Banking and Finance

MLR      Material Loss Review

MOU      Memorandum of Understanding

OIG      Office of Inspector General

OREO     Other Real Estate Owned

PCA      Prompt Corrective Action

ROE      Report of Examination

TARP     Troubled Asset Relief Program

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                       25
                                                                                         Appendix 4

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                 Division of Supervision and Consumer Protection

                                                                          October 21, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, In-Depth Review of Bank of
                 Hiawassee, Hiawassee, Georgia (Assignment No. 2010-041)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), and as amended by the
Dodd-Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted an In-Depth Review of the Bank of
Hiawassee (Hiawassee), which failed on March 19, 2010. This memorandum is the response of the
Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report (Report)
received on September 20, 2010.

Hiawassee failed due to ineffective oversight of its high concentrations of commercial real estate
(CRE) and acquisition, development and construction (ADC) loans, which included speculative
construction lending for vacation homes in southern North Carolina and northern Georgia.
Specifically, the Board and management failed to implement effective risk management practices
and strong credit administration and loan underwriting practices, commensurate with Hiawassee’s
risk profile. As a result, asset quality deteriorated and capital levels were insufficient to support a
safe and sound operation.

From 2005 to 2010, the FDIC and Georgia Department of Banking and finance (DBF) provided
ongoing supervisory oversight of Hiawassee with four risk management examinations supplemented
by on-site visitations. As early as 2006 the FDIC examiners noted that liquidity was strained as a
result of asset growth and Hiawassee’s increasing dependence on volatile non-core funding. In 2007
examiners noted a decline in asset quality and recommended improving documentation deficiencies.
In the 2008 joint visitation Hiawassee was assigned a composite “4” rating, and a Cease and Desist
order was issued. Hiawassee was further downgraded to a composite “5” rating in the 2009
examination due to further deterioration of asset quality, poor earnings performance, and capital
levels that were critically deficient.

We recognize the threat that institutions with high risk profiles, such as Hiawassee, pose to the Deposit
Insurance Fund. DSC issued a Financial Institution Letter (FIL) to banks on Managing Commercial Real
Estate Concentrations in a Challenging Environment that re-emphasizes the importance of robust credit
risk-management practices for institutions with concentrated CRE exposures. Additionally, we issued a
FIL in 2009 on The Use of Volatile or Special Funding Sources by Financial Institutions That Are in a
Weakened Condition to enhance the supervision of institutions that rely on volatile non-core funding.

Thank you for the opportunity to review and comment on the Report.


                                                    26
